OFFICE OF AUDIT
FINANCIAL AUDITS DIVISION
WASHINGTON, DC




        Government National Mortgage Association
              Fiscal Years 2013 and 2012
              Financial Statements Audit




2014-FO-0001                               December 6, 2013
                                                       Issue Date: December 6, 2013

                                                       Audit Report Number: 2014-FO-0001




TO:           Theodore Tozer, President, Government National Mortgage Association, T

                   /s/
FROM:         Thomas R. McEnanly, Director, Financial Audits Division, GAF


SUBJECT:      Audit of the Government National Mortgage Association’s (Ginnie Mae)
              Financial Statements of Fiscal Years 2013 and 2012


    In accordance with the Government Corporation Control Act as amended (31 U.S.C. 9105),
the Office of Inspector General engaged the independent certified public accounting firm of
CliftonLarsonAllen LLP (CLA) to audit the fiscal years 2013 and 2012 financial statements of
the Government National Mortgage Association (Ginnie Mae). The contract required that the
audit be performed according to Generally Accepted Government Auditing Standards (U.S.
GAGAS).

    In connection with the contract, we reviewed CLA’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
U.S. GAGAS, was neither intended to enable us to express an opinion nor do we express an
opinion on GNMA’s financial statements, internal controls or conclusions on compliance with
laws and regulations. CLA is responsible for the attached auditor’s report dated November 25,
2013 and the conclusions expressed in the report. Our review disclosed no instances where CLA
did not comply, in all material respects, with U.S. GAGAS.

    This report includes both the Independent Auditors’ Report and Ginnie Mae’s principal
financial statements. Under Federal Accounting Standards Advisory Board (FASAB) standards,
a general-purpose federal financial report should include as required supplementary information
(RSI) a section devoted to Management’s Discussion and Analysis (MD&A) of the financial
statements and related information. The MD&A is not included with this report. Ginnie Mae
plans to separately publish a Report to Congress for fiscal year 2013 that conforms to FASAB
standards.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8M, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.


                                                i
                                                       Issue Date: December 6, 2013

                                                       Audit Report Number: 2014-FO-0001




   Within 60 days of this report, CLA expects to issue a separate letter to management dated
November 25, 2013 regarding other matters that came to its attention during the audit.

    We appreciate the courtesies and cooperation extended to the CLA and OIG audit staffs
during the conduct of the audit. If you have any questions or comments about this report, please
do not hesitate to call me at 202-402-8216.




                                                i
                                             December 6, 2013

                                             Government National Mortgage Association
                                             Fiscal Years 2013 and 2012 Financial Statements Audit




Highlights
Audit Report 2014-FO-0001


 What We Audited and Why                      What We Found

 In accordance with the Government           Our IPA auditors found (1) the financial statements are
Corporation Control Act as amended (31       presented fairly, in all material respects, in conformity
U.S.C. 9105), HUD OIG engaged                with accounting principles generally accepted in the
CliftonLarsonAllen LLP (CLA) to audit        United States of America (U.S.); (2) one significant
the fiscal years 2013 and 2012 financial     deficiency in internal control over financial reporting;
statements of the Ginnie Mae, a wholly-      and (3) no instance of reportable noncompliance with
owned government corporation within          selected provisions of laws and regulations tested.
HUD. CLA have audited the
accompanying balance sheets of Ginnie
Mae as of September 30, 2013 and 2012,
and the related statements of revenues
and expenses and changes in investment
of U.S. Government, and cash flows for
the years then ended, and the related
notes to the financial statements. The
objective of the audit was to express an
opinion on the fairness of these financial
statements.

 What We Recommend

We recommend that Ginnie Mae obtain a
corrective action from Bank of America
Corporation; review the projected
workload requirements, evaluate the
remaining impact of ongoing delays in
recording servicing activity, and
document the anticipated effect on future
financial reporting; and for the Chief
Financial Officer to continue efforts to
confirm insured status of loans not yet
matched with data from the insuring
agencies.




                                                   iii
(THIS PAGE LEFT BLANK INTENTIONALLY)
                            TABLE OF CONTENTS


OIG Transmittal Memo                                             i

Highlights                                                      iii

Independent Auditor’s Report                                    4
      Exhibit A – Significant Deficiency                        10

      Exhibit B – Management’s Response                         12

Financial Statements                                            14

Balance Sheets                                                  16

Statements of Revenues and Expenses and Changes in Investment
      Of the U.S. Government                                    17

Statements of Cash Flows                                        18

Notes to the Financial Statements                               19




                                           2
(THIS PAGE LEFT BLANK INTENTIONALLY)




                 3
                                                                       CliftonLarsonAllen LLP
                                                                       www.cliftonlarsonallen.com




                          INDEPENDENT AUDITORS’ REPORT


Inspector General
United States Department of Housing and Urban Development

President
Government National Mortgage Association

In our audit of the fiscal years (FY) 2013 and 2012 financial statements of the Government
National Mortgage Association (Ginnie Mae), a wholly-owned government corporation within the
United States Department of Housing and Urban Development (HUD), we found:

      The financial statements are presented fairly, in all material respects, in accordance with
       accounting principles generally accepted in the United States of America (U.S.);
      One significant deficiency in internal control over financial reporting; and
      No instances of reportable noncompliance with certain provisions of laws and
       regulations tested or other matters.

The following sections and Exhibits discuss in more detail: (1) these conclusions, (2) other
information included with the financial statements, (3) management’s responsibilities, (4) our
responsibilities, and (5) management’s response to findings.

Report on the Financial Statements

We have audited the accompanying financial statements of Ginnie Mae, which comprise the
balance sheets as of September 30, 2013 and 2012, and the related statements of revenues
and expenses and changes in investment of U.S. Government, and cash flows for the years
then ended, and the related notes to the financial statements. The objective of our audit was to
express an opinion on the fairness of these financial statements.

Management’s Responsibilities

Ginnie Mae management is responsible for the (1) preparation and fair presentation of these
financial statements in accordance with accounting principles generally accepted in the U.S., (2)
preparation and presentation of other information in documents containing the audited financial
statements and auditors’ report, and consistency of that information with the audited financial
statements; and (3) design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of financial statements that are free from material
misstatement, whether due to fraud or error.




                                                4
                    INDEPENDENT AUDITORS’ REPORT (Continued)

Auditors’ Responsibilities

Our responsibility is to express an opinion on these financial statements based on our audits.
We conducted our audits in accordance with auditing standards generally accepted in the U.S.
and the standards applicable to the financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free from material misstatement. We also conducted our audits in accordance
with Office of Management and Budget (OMB) Bulletin 14-02, Audit Requirements for Federal
Financial Statements (OMB Bulletin 14-02).

In order to fulfill these responsibilities, we (1) obtained an understanding of Ginnie Mae and its
operations, including its internal control over financial reporting; (2) assessed the risk of financial
statement misstatement; (3) evaluated the design and operating effectiveness of internal control
based on the assessed risk; (4) considered Ginnie Mae’s process for evaluating and reporting
on internal control under FMFIA; (5) tested compliance with certain provisions of laws and
regulations, (6) examined, on a test basis, evidence supporting the amounts and disclosures in
the financial statements; (7) evaluated the appropriateness of the accounting policies used and
the reasonableness of significant accounting estimates made by management; (8) evaluated the
overall presentation of the financial statements; (9) read the other information included with the
financial statements in order to identify material inconsistencies, if any, with the audited financial
statements; and (10) performed such other procedures as we considered necessary in the
circumstances.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.

Opinion on the Financial Statements

In our opinion, the financial statements referred to above present fairly, in all material respects,
the financial position of Ginnie Mae as of September 30, 2013 and 2012, the results of its
operations; changes in investment of U.S. Government; and its cash flows for the years then
ended, in accordance with accounting principles generally accepted in the U.S.

Other Matters

Other Information
The information in Sections I and II (pages 1-24) contains a wide range of information, some of
which is not directly related to the financial statements. This information is presented for
purposes of additional analysis and is not a required part of the financial statements. This
information has not been subjected to the auditing procedures applied in the audit of the
financial statements, and accordingly, we do not express an opinion or provide any assurance
on it.




                                                  5
                   INDEPENDENT AUDITORS’ REPORT (Continued)

Report on Internal Control over Financial Reporting and on Compliance Based on an
Audit of Financial Statements Performed in Accordance with Government Auditing
Standards

Report on Internal Control over Financial Reporting

In planning and performing our audit of the financial statements, we considered Ginnie Mae’s
internal control over financial reporting (internal control) to determine the audit procedures that
are appropriate in the circumstances for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of Ginnie
Mae’s internal control. Accordingly, we do not express an opinion on the effectiveness of Ginnie
Mae’s internal control.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct, misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the Ginnie Mae’s financial statements will not be
prevented, or detected and corrected on a timely basis. A significant deficiency is a deficiency,
or combination of deficiencies, in internal control that is less severe than a material weakness,
yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the first paragraph
of this section and was not designed to identify all deficiencies in internal control that might be
material weaknesses or significant deficiencies and therefore, material weaknesses or
significant deficiencies may exist that were not identified. Given these limitations, during our
audit we did not identify any deficiencies in internal control that we consider to be material
weaknesses. We did identify a deficiency in internal control, described below, that we consider
to be a significant deficiency.

                   Inaccurate Accounting Reporting from Master Subservicer

       As a result of its routine contractor monitoring process and other special reviews,
       Ginnie Mae identified that the accounting reports provided by their largest master
       loan subservicer for use in its financial reporting were inadequately supported
       and contained inaccurate data. They also found untimely processing and posting
       of certain loan servicing events. Specifically, these reviews found:

          Inadequate controls over the completeness and accuracy of the loan data
           reported on the accounting reports
          Untimely billing for loan servicing expenses
          Untimely recording of claims/write-offs
          Interest curtailment due to untimely filing

       Ginnie Mae’s Office of the Chief Financial Officer (OCFO) worked to develop
       alternative reports from the master subservicer’s primary loan servicing system to
       properly support the related balances in their financial statements.

Additional details related to this finding and the specific recommendations to management are
presented in Exhibit A.



                                                6
                    INDEPENDENT AUDITORS’ REPORT (Continued)

Report on Compliance

As part of obtaining reasonable assurance about whether Ginnie Mae’s financial statements are
free from material misstatement, we performed tests of its compliance with certain provisions of
laws and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such
an opinion. The results of our tests disclosed no instances of noncompliance or other matters
that are required to be reported in accordance with Government Auditing Standards, issued by
the Comptroller General of the United States.

Management’s Responsibility for Internal Control and Compliance

Management is responsible for (1) evaluating the effectiveness of internal control over financial
reporting, (2) providing a statement of assurance on the overall effectiveness of internal control
over financial reporting, and (3) ensuring compliance with other applicable laws and regulations.

Auditors’ Responsibilities

We are responsible for: (1) obtaining a sufficient understanding of internal control over financial
reporting to plan the audit, (2) testing compliance with selected provisions of laws and
regulations that have a direct and material effect on the financial statements and applicable laws
for which OMB Bulletin 14-02 requires testing, and (3) applying certain limited procedures with
respect to the other information included with the financial statements.

We did not evaluate all internal controls relevant to operating objectives as broadly established
by FMFIA, such as those controls relevant to preparing statistical reports and ensuring efficient
operations. We limited our internal control testing to testing controls over financial reporting.
Because of inherent limitations in internal control, misstatements due to error or fraud, losses, or
noncompliance may nevertheless occur and not be detected. We also caution that projecting
our audit results to future periods is subject to risk that controls may become inadequate
because of changes in conditions or that the degree of compliance with controls may
deteriorate. In addition, we caution that our internal control testing may not be sufficient for other
purposes.

We did not test compliance with all laws and regulations applicable to Ginnie Mae. We limited
our tests of compliance to certain provisions of laws and regulations that have a direct and
material effect on the financial statements and those required by OMB Bulletin 14-02 that we
deemed applicable to Ginnie Mae’s financial statements for the fiscal year ended September 30,
2013. We caution that noncompliance with laws and regulations may occur and not be detected
by these tests and that such testing may not be sufficient for other purposes.

Management’s Response to Findings

Management’s response to the findings identified in our report is presented in Exhibit B. We did
not audit Ginnie Mae’s response and, accordingly, we express no opinion on it.




                                                  6
                   INDEPENDENT AUDITORS’ REPORT (Continued)

Purpose of the Report on Internal Control over Financial Reporting and the Report on
Compliance

The purpose of the Report on Internal Control over Financial Reporting and the Report on
Compliance sections of this report is solely to describe the scope of our testing of internal
control and compliance and the result of that testing, and not to provide an opinion on the
effectiveness of Ginnie Mae’s internal control or on compliance. These reports are an integral
part of an audit performed in accordance with Government Auditing Standards in considering
Ginnie Mae’s internal control and compliance. Accordingly, these reports are not suitable for any
other purpose.




CliftonLarsonAllen LLP
Arlington, Virginia
November 25, 2013




                                               6
                                          EXHIBIT A
                                    Significant Deficiency

                    Inaccurate Accounting Reporting from Master Subservicer

When an issuer of mortgage-backed securities insured by Ginnie Mae is found to be non-
compliant with Ginnie Mae’s Mortgage Backed Securities Guide, Ginnie Mae may elect to
declare the issuer in default and transfer the servicing of the defaulted portfolio to a Ginnie Mae
Master Subservicer (MSS). As one of Ginnie Mae’s MSS, Bank of America (BAC) performs loan
servicing for most of the loan portfolios assumed from Ginnie Mae defaulted issuers. The loan
portfolio serviced by BAC represents approximately 90% of the balance of performing mortgage
loans (pooled) and defaulted mortgage loans (non-pooled) assumed from defaulted issuers.
Part of their role as MSS requires BAC to submit to Ginnie Mae monthly accounting reports, on
a loan level basis, detailing the activity and inventories of non-pooled loans. These reports were
initially developed in compliance with the BAC contract as awarded in 2009. Ginnie Mae uses
these accounting reports to record and reconcile transactions and balances related to these
loans within their accounting system as an integral part of their financial reporting process.

BAC relies on an AS400LS loan servicing application (I-Series system) to manage and track
loan-level servicing activity performed from their facility in Plano, Texas. This system includes
key data such as original principal balance, unpaid principal balance, accrued interest, and loan
status. Information on the inventory of non-pooled loans from this I-Series system is manually
accumulated with sales and expense information from other BAC systems in order to generate
the monthly accounting reports.

The monthly loan level accounting reports provided by the MSS to Ginnie Mae have been found
to contain inaccurate information, beginning in FY2012 when the Ginnie Mae OCFO observed
discrepancies within different elements of the accounting reports, including discrepancies
between the data within the I-Series system and the data in the accounting reports. Ginnie
Mae’s OCFO also noted loans which were being closed out (transferred to the insurer, the
Federal Housing Administration (FHA), as a claim) in the I-Series system, but were still being
reported as open (awaiting transfer to FHA) to Ginnie Mae on the accounting reports.

Evidence of inaccurate financial information supplied by the MSS was further identified during
the Contractor Assessment Review completed in October 2012 and a Special Servicing
Assessment completed in January 2013. The Contractor Assessment Review of BAC found:

      Inadequate support for the posting logic and information within the accounting
       reports
      Insufficient reconciliations of information within the accounting reports

The report on the Special Servicing Assessment, issued in June 2013, noted:
    Inadequate controls over the completeness and accuracy of the loan data reported
      on the Accounting Reports
          o No reconciliation between I-Series system and accounting reports data
          o The manual process for compiling the accounting reports does not ensure
             information received is from an authorized source, is complete and
             accurate, or reported timely.
          o The default status of 5-10% of loans tested did not agree to the default
             status reported by the insuring agency
    Untimely billing for loan servicing expenses



                                                9
                                         EXHIBIT A
                                   Significant Deficiency

           o BAC did not submit requests for reimbursement to insuring agencies on
              behalf of Ginnie Mae for supplemental foreclosure expenses timely
      Untimely recording of claims/write-offs
           o For all loans tested, the unpaid principal balance of loans reported in the
              monthly accounting report were not reduced timely after receiving short sale
              and/or claim funds from the insuring agencies
      Interest curtailment due to untimely filing
           o For one-third of claims tested, BAC did not submit the first required legal
              filing timely, which reduced the amount of accrued interest that Ginnie Mae
              received from the insuring agencies.

Ginnie Mae’s contract with BAC states that “The Contractor shall be prepared to perform the
complete range of services expected of a Ginnie Mae issuer. These services include, but not
limited to providing default services, servicing current, delinquent and defaulted loans, both
pooled and non-pooled, including foreclosure services, management and disposition of acquired
properties (REO), preparation and submission of insurance or guarantee claims to FHA, VA,
RD, and PIH, reporting to Ginnie Mae. The Contractor shall also provide, on a monthly basis,
the accounting reports to Ginnie Mae. The Contractor shall have an automated process for
producing the Ginnie Mae monthly accounting reports as also referenced in CLIN 0004, 0104,
and 0204”.

BAC should adhere to the Committee of Sponsoring Organizations (COSO) Internal Controls –
Integrated Framework, which specifies that “pertinent information must be identified, captured
and communicated in a form and timeframe that enable people to carry out their responsibilities.
Information systems produce reports, containing operational, financial and compliance-related
information, that make it possible to run and control the business”.

The monthly accounting reports are inaccurate since BAC did not have effective integrated
systems to accumulate data necessary to generate monthly accounting reports accurately and
reliably for Ginnie Mae’s purposes, and did not establish effective controls to reconcile the data
from different systems contained within the reports, nor ensure data supporting the reports
could be retrieved timely.

Insufficiently reconciled, erroneous, and unsupported accounting reports increases the risk of
errors in Ginnie Mae’s financial statements. To address the risk of errors to their financial
statements as a result of these issues, the Ginnie Mae OCFO performed several new
procedures, as outlined below.

      Beginning in the fourth quarter of FY2012, Ginnie Mae’s OCFO worked with the MSS to
       develop and obtain inventory reports derived directly from the I-Series system, which
       were used to support the balances of Mortgages Held-for-Investment and Accrued
       Interest, Foreclosed Loans Claims Receivable, Short Sale Claims Receivable and Real
       Estate Owned.
      Following the completion of the Special Servicing Assessment, Ginnie Mae’s OCFO
       expanded the scope of procedures to be performed over BAC’s servicing activities in
       connection with their assessment of internal controls in accordance with OMB Circular
       A-123, Management’s Responsibility for Internal Control. Their review confirmed the
       underlying weaknesses in the completeness and reliability of the accounting reports.


                                               10
                                         EXHIBIT A
                                   Significant Deficiency

      In order to ensure the reliability of the I-Series reports, Ginnie Mae’s OCFO matched
       loan level data with data provided by FHA and the Department of Veterans Affairs (VA).
       They also performed additional procedures to ensure the reliability of the status of loans
       reported within the I-Series reports, which are now being used to confirm the reliability of
       the classification of these loans within the financial statements.

The results of their procedures identified a large number of loans that could not be readily
matched with the data from FHA or VA through the primary loan number. Ginnie Mae has not
yet completed their matching with Rural Development and the other insurers to confirm the
insured status of these loans.


Recommendations

In order to facilitate the development of an integrated system to accumulate the data necessary
for the monthly accounting reports to be reliable, we recommend the Senior Vice President of
the Office of Issuer and Portfolio Management:

   1a. Obtain a corrective action plan from BAC with critical milestones to document
       how all information is to be provided, supported, and reconciled to the
       appropriate underlying information system.

   1b. Review the projected workload requirements with BAC, evaluate the remaining
       impact of ongoing delays in recording servicing activity, and document the
       anticipated effect on future financial reporting.


We recommend the Office of Issuer and Portfolio Management work with the Ginnie
Mae Chief Financial Officer to:

Continue efforts to confirm the insured status of loans not yet matched with data from
the insuring agencies.




                                               11
      EXHIBIT B
Management’s Response




         12
(THIS PAGE LEFT BLANK INTENTIONALLY)




                 13
Government National Mortgage Association
Financial Statements for the fiscal years ended
        September 30, 2013 and 2012




                     14
(THIS PAGE LEFT BLANK INTENTIONALLY)




                 15
Government National Mortgage Association

Financial Statements

                                                          Balance Sheets


As of September 30                                                            2013                    2012
(Dollars in thousands)

Assets:
Funds with U.S. Treas ury                                                 $          9,622,400    $          7,075,500
Guaranty as s et                                                                     7,012,900               6,633,900
U.S. Governm ent s ecurities                                                         1,810,200               2,113,600


Mortgage loans held for inves tm ent                                                 6,169,600               6,866,500
   Les s : Allowance for m ortgage loans held for inves tm ent                       (502,200)               (177,400)
Mortgage loans held for inves tm ent, net                                            5,667,400               6,689,100


Foreclos ed property                                                                  494,600                 929,400
   Les s : Allowance for foreclos ed property                                          (13,500)                (76,800)
Foreclos ed property, net                                                             481,100                 852,600


Accrued interes t on m ortgage loans held for inves tm ent, net                        44,900                  88,600


Accrued fees and other receivables                                                     76,100                  66,300


Mortgage s ervicing rights                                                             65,100                  60,700


Advances agains t defaulted m ortgage-backed s ecurity pools                          261,600                 156,900
   Les s : Allowance for uncollectible advances                                      (162,500)                 (97,200)
Advances agains t defaulted m ortgage-backed s ecurity pools , net                     99,100                  59,700


Fixed as s ets --s oftware                                                             94,600                  87,500
   Les s : Accum ulated am ortization                                                  (58,100)                (47,400)
Fixed as s ets --s oftware, net                                                        36,500                  40,100

Short s ale claim s receivables                                                        81,600                  36,800
   Les s : Allowance for uncollectible s hort s ale claim s receivables                (19,900)                (15,700)
Short s ale claim s receivables , net                                                  61,700                  21,100

Properties held for s ale                                                              29,600                  15,500
    Les s : Allowance for los s es on properties held for s ale                         (6,200)                 (3,900)
Properties held for s ale, net                                                         23,400                  11,600

Accrued interes t on U.S. Governm ent s ecurities                                      10,400                  10,300

Ins urance claim s receivable                                                           8,400                   6,500
Total Assets                                                              $      25,019,600       $      23,729,600
Liabilities and Investment of U.S. Government:
Liabilities:
Guaranty liability                                                                   7,012,900               6,633,900
Liability for los s on m ortgage-backed s ecurities program guaranty                  700,300                 357,400
Accounts payable and accrued liabilities                                              167,200                 235,200
Deferred revenue                                                                      139,200                 134,400
Deferred liabilities and depos its                                                        300                   (2,700)
Total Liabilities                                                         $          8,019,900    $          7,358,200
Commitments and Contingencies
Inves tm ent of U.S. Governm ent                                                 16,999,700              16,371,400
Total Liabilities and Investment of U.S. Government                       $      25,019,600       $      23,729,600



See the accompanying notes to the financial statements.


                                                                    16
Government National Mortgage Association

Financial Statements

                   Statements of Revenues and Expenses and Changes in Investment of U.S. Government


For the Years Ended September 30                                                  2013                 2012

(Dollars in thousands)

Revenues:

Mortgage-backed securities guaranty fees                                    $             870,900 $       779,400

Interest income - mortgage loans held for investment                                      116,400         279,800

Interest income - US Government securities                                                 98,700             81,500

Commitment fees                                                                            92,200             79,100

Multiclass fees                                                                            39,900             25,000
Other mortgage-backed securities program income                                             7,000              1,800

Total Revenues                                                                           1,225,100 $     1,246,600

Expenses:

Mortgage-backed securities program expenses                                              (100,200)         (62,900)

Administrative expenses                                                                   (17,500)         (14,100)
Fixed asset amortization                                                                  (10,700)            (9,000)

Total Expenses                                                                           (128,400) $       (86,000)

Recapture (Provision) for loss on properties held for sale                                (17,200)            (9,200)

Recapture (Provision) for loss mortgage loans held for investment                         (16,100)        (158,100)

Recapture (Provision) for loss on mortgage-backed securities liability                   (402,100)        (264,500)

Recapture (Provision) for loss on short sale claims and other receivables                  (9,700)         (16,900)

Recapture (Provision) for loss on foreclosed property                                     (13,500)               -
Recapture (Provision) for loss on uncollectible advances                                   35,900             17,100

Total Recapture (Provision)                                                              (422,700) $      (431,600)

Gain (Loss) on disposition of investment                                                        -             12,500

Gain (Loss) on credit impairment of mortgage loans HFI, net                               (50,000)         (81,700)
Gain (Loss) on mortgage servicing rights                                                    4,400          (50,200)

Total Other Gains / (Losses)                                                              (45,600) $      (119,400)

Excess of Revenues over Expenses                                                          628,400         609,600
Investment of U.S. Government at Beginning of Year                                   16,371,300         15,761,800

Investment of U.S. Government at End of Year                                $        16,999,700 $       16,371,400


See the accompanying notes to the financial statements.




                                                                    17
Government National Mortgage Association

Financial Statements

                                                Statements of Cash Flows

For the Years Ended September 30                                                     2013             2012
(Dollars in thousands)
Cash Flow from Operating Activities
Net Excess of Revenues over Expenses                                             $    628,400     $    609,600

Adjustments to reconcile Net Excess of Revenues Over Expenses to Net Cash from
Operating Activities:
 Amortization                                                                          10,700             9,000
 Change in accrued interest on U.S. Government securities                                (100)            1,500
 Change in accrued interest on mortgage loans held for investment, net                 43,700            (5,200)
 Change in advances against defaulted mortgage-backed securities pools, net            (39,400)        593,500
 Change in foreclosed property, net                                                   371,500         (852,600)
 Change in insurance claims receivables                                                 (1,900)          (6,500)

 Change in mortgage servicing rights                                                    (4,400)         50,200

 Change in deferred revenue                                                              4,800          17,000

 Change in deferred liabilities and deposits                                             3,000          (38,400)

 Change in accrued fees and other receivables                                           (9,800)          (3,800)
 Change in short sale claims receivables, net                                          (40,600)         11,200
 Change in properties held for sale, net                                               (11,800)          (8,200)

 Change in accounts payable and accrued liabilities                                    (68,000)       (130,100)
 Change in liability for loss on mortgage-backed securities program guaranty          342,900           (38,400)

Net Cash from Operating Activities                                               $   1,229,000    $    208,800

Cash Flow from Investing Activities
Change in mortgage loans held for investment, net                                    1,021,700        (338,800)

Sale of U.S. Government securities, net                                               303,400           13,200

Purchase of software                                                                    (7,200)         (18,000)

Net Cash (used for) from Investing Activities                                    $   1,317,900    $    (343,600)
Cash Flow from Financing Activities
Financing activities                                                                         -                -

Net Cash from Financing Activities                                               $           -    $           -
Net increase (decrease) in cash & cash equivalents                                   2,546,900        (134,800)
Cash & cash equivalents - beginning of period                                        7,075,500        7,210,300

Cash & cash equivalents - end of period                                          $   9,622,400    $   7,075,500


                                  Supplemental Schedule of Non-Cash Activities

For the Years Ended September 30                                                     2013             2012
(Dollars in thousands)
Transfer of Advances against Defaulted MBS pools to
   Mortgage Loans Held for Investment                                            $   1,055,400    $    705,007


Transfer from Mortgage Loans Held for Investment to                              $     42,600     $     25,500
   Properties Held for Sale



See the accompanying notes to the financial statements.
                                                            18
Notes to the Financial Statements

September 30, 2013 and 2012

Note 1: Organization and Summary of Significant Accounting Policies

The Government National Mortgage Association (Ginnie Mae) was created in 1968, through an
amendment of Title III of the National Housing Act as a government corporation within the
United States (U.S.) Department of Housing and Urban Development (HUD). The Mortgage-
Backed Securities (MBS) program is Ginnie Mae’s primary ongoing activity. Its purpose is to
increase liquidity in the secondary mortgage market and attract new sources of capital for
residential mortgage loans. Through the program, Ginnie Mae guarantees the timely payment of
principal and interest on securities backed by pools of mortgages issued by private institutions.
This guaranty is backed by the full faith and credit of the U.S. Government. Ginnie Mae requires
that the mortgages be insured or guaranteed by the U.S. Federal Housing Administration (FHA),
another government Corporation within HUD, the U.S. Department of Agriculture (USDA), the
Department of Veterans Affairs (VA), or the HUD Office of Public and Indian Housing (PIH).
These MBS are not assets of Ginnie Mae, nor are the related outstanding securities liabilities;
accordingly, neither is reflected on the accompanying Balance Sheets.

To ensure that adequate capital continues to flow to the mortgage markets, Ginnie Mae offers
reliable solutions that meet the needs of a broad constituent base and provide sufficient flexibility
to respond to market changes. At the core of its business model and its product offering menu is
the simple pass-through security, which comes in the form of two product structures—Ginnie
Mae I MBS and Ginnie Mae II MBS. Each Ginnie Mae product structure has specific
characteristics regarding pool types, note rates, collateral, payment dates, and geographical
locations.

The underlying source of loans for the Ginnie Mae I MBS and Ginnie Mae II MBS comes from
Ginnie Mae’s following four main programs, which serve a variety of loan financing needs and
different issuer origination capabilities:

      Single Family Program – The majority of Ginnie Mae securities are backed by single
       family mortgages predominantly originated through FHA and VA loan insurance
       programs.
      Multifamily Program – Ginnie Mae insures securities backed by FHA and USDA
       purchase and refinance loans for the purchase, construction, and renovation of apartment
       buildings, hospitals, nursing homes, and assisted living facilities.
      HMBS Program – Ginnie Mae’s Home Equity Conversion Mortgage (HECM) securities
       program provides capital and liquidity for FHA-insured reverse mortgages. HECM loans
       are insured separately from regular single family mortgages due to their unique cash flow
       and fee structure. HECM loans can be pooled into HECM Mortgage Backed Securities
       (HMBS) within the Ginnie Mae II MBS program.
      Manufactured Housing Program – Ginnie Mae’s Manufactured Housing program
       allows the issuance of pools of loans insured by FHA’s Title I Manufactured Home Loan
       Program.

                                                 19
Basis of Presentation: The accompanying financial statements have been prepared in
accordance with accounting principles generally accepted in U.S. GAAP as established by the
Financial Accounting Standards Board (FASB).

Funds with U.S. Treasury: All Ginnie Mae receipts and disbursements are processed by the
U.S. Treasury Department, which in effect maintains Ginnie Mae’s bank accounts. All funds are
accessible in the event of a default. For purposes of the Statements of Cash Flow, Funds with
U.S. Treasury are considered cash.

U.S. Government Securities: U.S. Government Securities are classified as held for investment
as Ginnie Mae has both the ability and the intent to hold them until their maturity, and
accordingly, they are carried at amortized cost. Interest income on such securities is presented on
the Statements of Revenues and Expenses and Changes in Investment of U.S. Government
(Statements of Revenues and Expenses). Discounts and premiums are amortized, on a level yield
basis, over the life of the related security.

Financial Guarantees: Ginnie Mae, as guarantor, follows the guidance in FASB Accounting
Standards Codification (ASC) Topic 460, Guarantees (ASC 460), for its accounting for, and
disclosure of, the issuance of certain types of guarantees. ASC 460 requires that upon issuance
of a guaranty, the guarantor must recognize a liability for the fair value of the obligation it
assumes under the guaranty. The issuance of a guaranty under the MBS program obligates
Ginnie Mae to stand ready to perform over the term of the guaranty in the event that the specified
triggering events or conditions occur. This means Ginnie Mae will advance funds to investors
and service an issuer’s portfolio in the event of their default.

At inception of the guaranty, Ginnie Mae recognizes a liability for the guaranty it provides on
MBSs issued by third-party issuers. Generally, a guaranty liability is initially measured at fair
value. However, Ginnie Mae applies the practical expedient in ASC 460, which allows the
guaranty liability to be recognized at inception based on the premium received or receivable by
the guarantor, provided the guaranty is issued in a standalone arm’s length transaction with an
unrelated party.

Ginnie Mae provides the guaranty of principal and interest payments to MBS holders in the
event of issuer default and, in exchange, receives monthly guaranty fees from the issuers on the
unpaid principal balance of the outstanding MBSs in the non-defaulted issuer portfolio.
Accordingly, the guaranty asset is based on the expected present value of these fees, taking into
account anticipated amortization of defaults and prepayments.

Additionally, as the guaranty is issued in a standalone transaction for a premium, Ginnie Mae
records a guaranty liability to recognize the future expense for its guaranty as the offsetting entry
for the guaranty asset. Thus, there is no impact from the guaranty liability and asset on the net
financial position of Ginnie Mae.

Mortgage Servicing Rights: Mortgage Servicing Rights (MSR) represent Ginnie Mae’s right
and obligation to service mortgage loans in mortgage backed securities obtained from defaulted
issuers. Ginnie Mae contracts with multiple Master Subservicers (MSS) to provide the servicing

                                                 20
of its mortgage loans. The servicing functions typically performed by Ginnie Mae’s MSSs
include: collecting and remitting loan payments, responding to borrower inquiries, accounting
for principal and interest, holding custodial funds for payment of property taxes and insurance
premiums, counseling delinquent mortgagors, supervising foreclosures and property dispositions,
and generally administering the loans. Ginnie Mae receives a weighted average servicing fee
annually on the remaining outstanding principal balances of the loans. These servicing fees are
included in and collected from the monthly payments made by the borrowers. Ginnie Mae pays a
servicing expense to the MSSs in consideration for servicing the loans.

Ginnie Mae records a servicing asset or liability each time it takes over a defaulted issuer’s
Ginnie Mae-guaranteed portfolio. The balance of the MSR represents the present value of the
estimated compensation for mortgage servicing activities that exceeds the fair market cost for
such servicing activities. Ginnie Mae considers its fair market cost to be the amount of
compensation that would be required by a substitute MSS should one be required. Typically, the
benefits of servicing are expected to be more than adequate compensation to a servicer for
performing the servicing, and the contract results in a servicing asset. However, if the benefits of
servicing are not expected to adequately compensate a servicer for performing the servicing, the
contract results in a servicing liability.

Ginnie Mae has elected the fair value option for the MSRs to better reflect the potential net
realizable or market value that could be ultimately realized from the disposition of the MSR asset
or the settlement of a future MSR liability. Ginnie Mae uses a valuation model that calculates
the present value of estimated future net servicing income to determine the fair value of MSRs,
which factors in key economic assumptions and inputs used in valuations of MSRs include
prepayment rates, cost to service a loan, contractual servicing fee income, ancillary income,
escrow account earnings, and the discount rate. The discount rate is used to estimate the present
value of the projected cash flows in order to estimate the fair value of the MSRs. The discount
rate assumptions reflect the market’s required rate of return adjusted for the relative risk of the
asset type. This approach consists of projecting servicing cash flows and estimating the present
value of these cash flows using discount rates. Upon acquisition, Ginnie Mae measures its
MSRs at fair value and subsequently re-measures the assets or liabilities with changes in the fair
value recorded in the Statements of Revenues and Expenses.

Advances Against Defaulted MBS Pools: Advances against defaulted MBS pools represent
pass-through payments made to fulfill Ginnie Mae’s guaranty of timely principal and interest
payments to MBS security holders. The advances are reported net of an allowance to the extent
that management believes that they will not be recovered. The allowance for uncollectible
advances is estimated based on actual and expected recovery experience including expected
recoveries from FHA, USDA, VA and PIH. Other factors considered in the estimate include
market analysis and appraised value of the loans. These loans are still accruing interest because
they have not reached the required delinquency thresholds and purchased from the defaulted
issuer pools.

Once Ginnie Mae purchases the loans from the pools after the 90 and 120 day delinquency
thresholds for Manufactured Housing and Single Family loans, respectively, the loans are
reclassified as Mortgage Loans Held for Investment (HFI) below. Ginnie Mae records a charge-

                                                21
off as a reduction to the allowance for loan losses when losses are confirmed through the receipt
of assets in full satisfaction of a loan, such as the receipt of claims proceeds from an insuring
agency or underlying collateral upon foreclosure.

Mortgage Loans HFI: When a Ginnie Mae issuer defaults, Ginnie Mae is required to step into
the role of the issuer and make the timely pass-through payments to investors, and subsequently,
assumes the servicing rights and obligations of the issuer’s entire Ginnie Mae guaranteed, pooled
loan portfolio of the defaulted issuer. Ginnie Mae utilizes the MSSs to service these portfolios.
There are currently two MSSs for Single Family and one MSS for Manufactured Housing
defaulted issuers. These MSSs currently service 100% of all non-pooled loans.

In its role as servicer, Ginnie Mae assesses individual loans within its pooled portfolio to
determine whether the loan must be purchased out of the pool as required by the Ginnie Mae
MBS Guide. Ginnie Mae purchases mortgage loans out of the MBS pool when:

   A. Mortgage loans are uninsured by the FHA, USDA, VA or PIH
   B. Mortgage loans were previously insured but insurance is currently denied (collectively
      with B), referred to as uninsured mortgage loans)
   C. Mortgage loans are insured but are delinquent for more than 90 and 120 days based on
      management discretion for manufactured housing and single family loans, respectively.

During FY 2013, the majority of purchased mortgage loans were bought out due to borrower
delinquency of more than 90 or 120 days depending on loan type (i.e., Single Family or
Manufactured Housing).

Ginnie Mae evaluates the collectability of all purchased loans and assesses whether there is
evidence of credit deterioration subsequent to the loan’s origination and it is probable, at
acquisition, that Ginnie Mae will be unable to collect all contractually required payments
receivable. Ginnie Mae considers guarantees and insurance from FHA, USDA, VA and PIH in
determining whether it is probable that Ginnie Mae will collect all amounts due according to the
contractual terms.

For FHA insured loans, Ginnie Mae expects to collect the full amount of the unpaid principal
balance and debenture rate interest (only for months allowed in the insuring agency’s timeline),
when the insurer reimburses Ginnie Mae subsequent to filing a claim. As a result, these loans
are accounted for under ASC Subtopic 310-20, Receivables – Nonrefundable Fees and Other
Costs. In accordance with ASC 310-20-30-5, these loans are recorded at the unpaid principal
balance which is the amount Ginnie Mae pays to repurchase these loans. Accordingly, Ginnie
Mae recognizes interest income on these loans on an accrual basis at the debenture rate for the
number of months allowed under the insuring agency’s timeline. After the allowed timeline,
Ginnie Mae considers these loans to be non-performing as the collection of interest is no longer
reasonably assured, and places these loans on nonaccrual status. Ginnie Mae recognizes interest
income for loans on nonaccrual status when cash is received.

Ginnie Mae separately assesses the collectability of mortgage loans bought out of the defaulted
portfolios that are uninsured and loans that are non-FHA insured for which Ginnie Mae only

                                               22
receives a portion of the outstanding principal balance. If the principal and interest payments are
not fully guaranteed from the insurer (i.e., there is a lack of insurance), or loans are delinquent at
acquisition, it is probable that Ginnie Mae will be unable to collect all contractually required
payments receivable. Accordingly, these loans are considered to be credit impaired and are
accounted for under ASC Subtopic 310-30, Receivables – Loans and Debt Securities Acquired
with Deteriorated Credit Quality. At the time of acquisition, these loans are recorded at the
lower of their acquisition cost or present value of expected amounts to be received. As non-
performing loans, these loans are placed on nonaccrual status.

Ginnie Mae has the ability and the intent to hold these acquired loans for the foreseeable future
or until maturity. Therefore, Ginnie Mae classifies the mortgage loans as held for investment
(HFI). The mortgage loans HFI are reported net of allowance for loan losses. Mortgage loans
HFI also includes mortgage loans that are undergoing the foreclosure process.

Ginnie Mae performs periodic and systematic reviews of its loan portfolios to identify credit
risks and assess the overall collectability of the portfolios for the estimated uncollectible portion
of the principal balance of the loan. The allowance for loss on mortgage loans HFI represents
management’s estimate of probable credit losses inherent in Ginnie Mae’s mortgage loan
portfolio. The allowance for loss on mortgage loans HFI is netted against the balance of
mortgage loans HFI. Additionally, Ginnie Mae incorporates the probable recovery amount from
mortgage insurance (e.g., FHA, USDA, VA, or PIH) based on established insurance rates. To
make this evaluation, Ginnie Mae reviews the delinquency of mortgage loans, industry
benchmarks, as well as the established rates of insurance recoveries from insurers.

Ginnie Mae records a charge-off as a reduction to the allowance for loan losses when losses are
confirmed through the receipt of assets in full satisfaction of a loan, such as the receipt of claims
proceeds from an insuring agency or underlying collateral upon foreclosure.

Insurance Claims Receivable: Ginnie Mae records a receivable for insurance claims which
have been submitted to an insuring agency for claim, but have not been paid as of the end of the
reporting period. Because it is a Federal Receivable, Ginnie Mae expects full reimbursement.
As a result, no allowance is calculated on this receivable.

Properties Held for Sale: Properties held for sale represent assets that Ginnie Mae has received
the title of the underlying collateral (e.g. completely foreclosed upon and repossessed) and
intends to sell the collateral. For instances in which Ginnie Mae does not convey the property to
the insuring agency, Ginnie Mae holds the title until the property is sold. As the properties are
available for immediate sale in their current condition and are actively marketed for sale, they are
reported as properties held for sale on the Balance Sheets in accordance with ASC Subtopic 360-
10, Property, Plant, and Equipment – Overall. Properties held for sale are initially recorded on
the Balance Sheets at fair value less its estimated cost to sell. The fair value less estimated cost
to sell on the date of foreclosure is deemed to be the carrying value of the foreclosed asset.
Subsequent to initial measurement, the properties held for sale are reported at the lower of the
carrying amount or fair value less estimated cost to sell. The properties are appraised by
independent entities on a regular basis throughout the year. Ginnie Mae expects sale of the
property to occur prior to one year from the date of the foreclosure. As a result, Ginnie Mae

                                                 23
does not depreciate these assets. Ginnie Mae records an allowance to account for potential sale
costs including maintenance and miscellaneous expenses, along with a loss percentage based on
historical data, which includes declines in the fair value of foreclosed properties.

Short Sale Claims Receivable: As an alternative to foreclosure, a property may be sold for its
appraised value even if the sale results in a short sale where the proceeds are not sufficient to pay
off the mortgage. Ginnie Mae’s MSSs analyze mortgage loans HFI for factors such as
delinquency, appraised value of the loan, and market in locale of the loan to identify loans that
may be short sale eligible. These transactions are analyzed and approved by Ginnie Mae’s MBS
program office.

For FHA insured loans, for which the underlying property was sold in a short sale, the FHA
typically pays Ginnie Mae the difference between the proceeds received from the sale and the
total contractual amount of the mortgage loan and interest at the debenture rate. Hence, Ginnie
Mae does not incur any losses as a result of the short sale of an FHA insured loan. Ginnie Mae
records a short sale claims receivable while it awaits repayment of this amount from the insurer.
For short sale claims receivable for which Ginnie Mae believes that collection is not probable,
Ginnie Mae records an allowance for short sale claims receivable. The allowance for short sales
claims receivable is estimated based on actual and expected recovery experience including
expected recoveries from FHA, USDA, VA, and PIH. The aggregate of the short sale claims
receivable and the allowance for short sale claims receivable is the amount that Ginnie Mae
determines to be collectible. Ginnie Mae records a charge-off as a reduction to the allowance for
loan losses when losses are confirmed through the receipt of claims in full satisfaction of a loan
from an insuring agency.

Foreclosed Property: Ginnie Mae records foreclosed property when a MSS receives
marketable title to a property which has completed the foreclosure process in the respective state.
The asset is measured as the principal and interest of a loan which is in the process of being
conveyed to an insuring agency, net of an allowance. These assets are conveyed to the
appropriate insuring agency within six months. Foreclosed property has previously been placed
on nonaccrual status after the loan was repurchased from a pool. These properties differ from
properties held for sale because they will be conveyed to an insuring agency, and not sold by the
MSS.

The allowance for foreclosed property is estimated based on actual and expected recovery
experience including expected recoveries from FHA, USDA, VA, and PIH. The aggregate of the
foreclosed property and the allowance for foreclosed property is the amount that Ginnie Mae
determines to be collectible. Ginnie Mae records a charge-off as a reduction to the allowance for
loan losses when losses are confirmed through the receipt of assets in full satisfaction of a loan,
such as the receipt of claims proceeds from an insuring agency.

Liability for Loss on MBS Program Guaranty: Liability for loss on MBS program guaranty
(MBS loss liability) represents management’s estimate of future losses to be incurred as a result
of the guaranty provided on MBS portfolios when information indicates a loss is probable and
the amount of loss can be reasonably estimated.



                                                 24
The MBS loss liability is established to the extent management believes losses due to issuer
defaults are probable and estimable and servicing income and FHA, USDA, VA, and PIH
insurance proceeds do not fully cover Ginnie Mae servicing and loan acquisition related costs.
Ginnie Mae establishes a MBS loss liability through a provision charged to operations when, in
management’s judgment, losses associated with existing defaulted issuers or performing issuer
defaults are probable and estimable. In estimating losses, management utilizes a statistically-
based model that evaluates numerous factors, including, but not limited to, general and regional
economic conditions, mortgage characteristics, and actual and expected future default and loan
loss experience. Ginnie Mae also analyzes the ability of the borrowers to pay as well as the
recovery amount from mortgage insurance when estimating valuations of the mortgage-related
assets and liabilities.

Additionally, the Office of Enterprise Risk (ERO) utilizes CorporateWatch to assist in the
analysis of potential defaults. CorporateWatch assigns each issuer an internal risk grade using an
internally developed proprietary risk-rating methodology. The objective of the methodology is
to identify those Ginnie Mae issuers that display an elevated likelihood of default relative to their
peers. To this end, the methodology assigns each active Issuer a risk grade ranging from 1-8,
with 1 representing a low probability of default and 8 representing an elevated probability of
default. A higher probability of default would arise from an observed weakness in an entity's
financial health. Those Issuers with an elevated probability of default are assigned an internal
risk grade of 7 or 8 and are automatically included in Risk Category I of the Watch List. ERO
prepares written financial reviews on all Issuers appearing in Risk Category I of Watch List to
assess the level of on-going monitoring needed to ensure that these Issuers remain viable Ginnie
Mae counterparties or to take other mitigation actions.

Ginnie Mae’s MBS loss liability is made up of three components:

   A. Liability for currently defaulted issuers’ pooled loans – the estimated liability that arises
      from the guaranty obligation that Ginnie Mae has to the MBS holders subsequent to
      issuer default.
   B. Liability for currently defaulted issuers’ non-pooled loans – Separate from the unpaid
      principal and interest of MHI, Ginnie Mae records a liability for estimated non-
      recoverable foreclosure costs that arise from the servicing and managing of mortgage
      loans HFI and properties held for sale.
   C. Liability for probable issuer defaults – loss contingency that arises from the guaranty
      obligation that Ginnie Mae has to the MBS holders as a result of a probable issuer
      default. The issuers have the obligation to make timely principal and interest payments to
      investors, however, in the event whereby the issuer defaults, The liability is valued as the
      net present value of future advancers and servicing costs, net of insurance proceeds and
      recoveries. For the issuers who are identified as probable defaults, Ginnie Mae records a
      contingent liability for the estimated amount of the cash flows in the loss liability.

The MBS loss liability is a liability account on the Balance Sheet. Ginnie Mae recognizes the
loss by recording a charge to the provision for loss on MBS program guaranty on the Statements
of Revenue and Expenses. Ginnie Mae records charge-offs as a reduction to the MBS loss
liability account when losses are confirmed and records recoveries as a credit to the MBS loss

                                                 25
liability account. Ginnie Mae recovers part of its losses through servicing fees on the performing
portion of the portfolios. Accordingly, the MBS loss liability is increased by provisions recorded
as an expense in the Statements of Revenues and Expenses and reduced by charge-offs, net of
recoveries. Among other losses and recoveries, miscellaneous expenses related to foreclosure
are not capitalized on the Balance Sheet and are charged off against the MBS loss liability and
recoveries of these expenses through the claims process are shown as recoveries against the MBS
loss liability.

On an annual basis, Ginnie Mae assesses the loss liability model for reasonableness and
predictive capabilities. As Ginnie Mae’s defaulted issuer portfolio changes, the Budget and
Economic Modeling Division reviews the original estimates by comparing them with actual
results and historical data. This includes reviewing market inputs such as interest rates and
volatility. If changes are necessary, the model is changed appropriately and reevaluated to verify
that the changes were implemented properly.

Fixed Assets: Ginnie Mae’s fixed assets represent systems (software) that are used to
accomplish its mission. Ginnie Mae capitalizes significant software development project costs
based on guidance in the ASC Subtopic 350-40 Intangibles—Goodwill and Other – Internal-Use
Software (ASC 350-40). Ginnie Mae amortizes costs over a three- to five-year period beginning
with the project’s completion on a straight-line basis.

Accrued Fees and Other Receivables: Ginnie Mae’s Accrued Fees and Other Receivables line
item includes accrued guarantee fees and miscellaneous program receivables. The accrued
guarantee fees are discussed in the Financial Guarantees section above. There is no allowance
related to the miscellaneous program receivables because they are receivables with the U.S.
Government.

Fair Value: Ginnie Mae measures the fair value of its financial instruments in accordance with
ASC Topic 820, Fair Value Measurement (ASC 820), as amended by FASB Accounting
Standards Update (ASU) 2011-04, Amendments to Achieve Common Fair Value Measurement
and Disclosure Requirements in U.S. GAAP and International Financial Reporting Standards
(IFRS), that requires an entity to base fair value on exit price and maximize the use of
observable inputs and minimize the use of unobservable inputs to determine the exit price.
Accounting guidance defines fair value as the price that would be received for an asset or paid to
transfer a liability (an exit price) in the principal or most advantageous market for the asset or
liability in an orderly transaction between market participants on the measurement date.

Ginnie Mae categorizes its financial instruments, based on the priority of inputs to the valuation
technique, into a three-level hierarchy, as described below.

Level 1     Quoted prices in active markets for identical assets or liabilities. Level 1 assets and
            liabilities include debt and equity securities and derivative contracts that are traded
            in an active exchange market, as well as certain U.S. Treasury and other U.S.
            Government securities that are highly liquid and are actively traded in over-the-
            counter markets.



                                               26
Level 2    Observable inputs other than Level 1 prices, such as quoted prices for similar assets
           or liabilities, quoted prices in markets that are not active, or other inputs that are
           observable or can be corroborated by observable market data for substantially the
           full term of the assets or liabilities. Level 2 assets and liabilities include securities
           with quoted prices that are traded less frequently than exchange-traded instruments
           that are observable in the market or can be derived principally from or corroborated
           by observable market data.


Level 3    Unobservable inputs that are supported by little or no market activity and that are
           significant to the fair value of the assets or liabilities. Level 3 assets and liabilities
           include financial instruments whose value is determined using pricing models,
           discounted cash flow methodologies, or similar techniques, as well as instruments
           for which the determination of fair value requires significant management judgment
           or estimation.

Recognition of Revenues and Expenses: Ginnie Mae recognizes revenue from the following
sources:

      Guaranty Fees – Ginnie receives monthly guaranty fees for each MBS mortgage pool,
       based on a percentage of the pool’s outstanding balance. Fees received for Ginnie Mae’s
       guaranty of MBS are recognized as earned.
      Interest Income – Mortgage Loans HFI – Ginnie Mae earns interest income on an accrual
       basis at the debenture rate for the number of months allowed under the insuring agency’s
       timeline.
      Interest Income – U.S. Government Securities – Ginnie Mae earns interest income on
       U.S. Government Securities related to U.S. Treasury Overnight Certificates, Treasury
       Notes, and Treasury Inflation-Index Securities.
      Commitment Fees – Ginnie Mae receives commitment fees as issuers request
       commitment authority, and recognizes the commitment fees as income as issuers use
       their commitment authority, with the balance deferred until earned or expired, whichever
       occurs first. Fees from expired commitment authority are not returned to issuers.
      Multiclass Fees – Ginnie Mae receives one-time upfront fees related to the issuance of
       multiclass products. These multiclass fees are recognized as revenue over the service
       period in proportion to the costs expected to be incurred.
      Other MBS Program Income – Ginnie Mae also recognizes income through fees related
       to New Issuer Applications and Transfers of Servicing.

Ginnie Mae’s expenses are classified into three groups: MBS program expenses, administrative
expenses, and fixed asset amortization. The main components of the MBS program expense line
item are multiclass expenses, MBS information systems and compliance expenses, and transfer
agent expenses.

Statements of Cash Flows: Ginnie Mae prepares the Statements of Cash Flows on an indirect
basis. For purposes of the Statements of Cash Flows, Funds with U.S. Treasury are considered

                                                27
cash. Ginnie Mae classifies cash flows from operations related to its programs and overall
business operations (i.e., accrued interest, deferred revenue and liabilities, accounts payable, and
MBS loss liability) as operating activities. Ginnie Mae classifies cash flows from securities that
Ginnie Mae intends to hold for investment (i.e., U.S. Government securities and mortgage loans
HFI) and capital expenditures and proceeds from sale of software as investing activities. Ginnie
Mae classifies cash flows from any non-federal transactions necessary to finance or fund the
operations of the agency as financing activities; of which there are none. Management
determines the cash flow classification at the date of purchase of a loan, whether it intends to sell
(operating activity) or hold the loan for the foreseeable future (investing activity).

Use of Estimates: The preparation of financial statements in conformity with accounting
principles generally accepted in the U.S. requires management to make estimates and
assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent
liabilities at the date of the financial statements and the reported amounts of revenues and
expenses during the reporting period. Ginnie Mae has made significant estimates in a variety of
areas including, but not limited to, valuation of certain financial instruments and assets (e.g.,
MSRs, properties held for sale, and fixed assets - software), and liabilities (e.g., accruals for
payments of contracts and miscellaneous expenses related to maintaining mortgage assets, and
litigation-related obligations), including establishing the MBS loss liability. While Ginnie Mae
believes its estimates and assumptions are reasonable based on historical experience and other
factors, actual results could differ from those estimates.

Adoption of New Accounting Standard: Ginnie Mae adopted the new accounting standard,
FASB ASU 2011-04, Amendments to Achieve Common Fair Value Measurement and
Disclosure Requirements in U.S. GAAP and IFRS, which was effective for annual reporting
periods beginning after December 15, 2011 for information that Ginnie Mae has available. The
adoption of ASU 2011-04 did not affect the financial statement results as it only amended and
enhanced the disclosure requirements related to Fair Value disclosures.



Note 2: U.S. Government Securities

The amortized cost and fair values as of September 30, 2013 were as follows:

                                                                   Gross            Gross
                                                Amortized Cost   Unrealized       Unrealized       Fair Value
   (Dollars in thousands)                                          Gains           Losses
   U.S. Treasury Overnight Certificates         $     192,100    $            -   $            -   $    192,100
   U.S. Treasury Notes                                998,600        24,500                    -       1,023,100
   U.S. Treasury Inflation-Indexed Securities         619,500        33,800                    -        653,300
   Total                                        $    1,810,200   $   58,300       $            -   $ 1,868,500


The amortized cost and fair values as of September 30, 2012 were as follows:




                                                     28
                                                                       Gross              Gross
                                                    Amortized Cost   Unrealized         Unrealized           Fair Value
   (Dollars in thousands)                                              Gains             Losses
   U.S. Treasury Overnight Certificates             $     509,600    $              -   $              -    $    509,600
   U.S. Treasury Notes                                    996,300            29,600                    -        1,025,900
   U.S. Treasury Inflation-Indexed Securities             607,700            40,600                    -         648,300
   Total                                            $    2,113,600   $       70,200     $              -    $ 2,183,800


The amortized cost, fair value, and annual weighted average interest rates of U.S. Government
securities at September 30, 2013, by contractual maturity date, were as follows:

                                                                                                    Weighted
                                                          Amortized Cost         Fair Value          Average
           (Dollars in thousands)                                                                 Interest Rate
           Due within one year                            $    1,810,200      $ 1,868,500                  -3.03%
           Due after one year through five years                         -                    -
           Due after five years through ten years                        -                    -
           Total                                          $    1,810,200      $ 1,868,500                  -3.03%


The amortized cost, fair value, and annual weighted average interest rates of U.S. Government
securities at September 30, 2012, by contractual maturity date, were as follows:

                                                                                                    Weighted
                                                          Amortized Cost         Fair Value          Average
           (Dollars in thousands)                                                                 Interest Rate
           Due within one year                            $     509,600      $      509,600                0.05%
           Due after one year through five years               1,604,000          1,674,200                -0.49%
           Due after five years through ten years                        -                    -                  -
           Total                                          $    2,113,600     $ 2,183,800                   -0.36%


The U.S. Government securities portfolio is held in special market-based U.S. Treasury
securities that are bought and sold at composite prices received from the Federal Reserve Bank
of New York. These securities are maintained in book-entry form at the Bureau of Public Debt
and include overnight certificates, U.S. Treasury notes, and U.S. Treasury inflation-indexed
securities (reflecting inflation compensation). The coupon rates of Ginnie Mae’s holdings, with
a maturity of greater than one year, as of September 30, 2013, range from 1.88 percent to 2.00
percent. As of September 30, 2012, they ranged from 1.88 percent to 2.00 percent.

Although sales of investments are rare, Ginnie Mae liquidated one of its U.S. Government
securities within one year of maturity in FY 2012. The par value of the security sold was $520.6
million and the realized gain on the sale was $12.5 million. These funds were used to repurchase
mortgage loans held for investment from defaulted issuer MBS pools. There were no sales of
investments prior to maturity in FY 2013.

Note 1 describes loan repurchases in the mortgage loans HFI section in more detail.


                                                         29
Note 3: Financial Guarantees and Financial Instruments with Off-Balance Sheet Risk
Ginnie Mae receives a guaranty fee from issuers which is calculated based on the unpaid
principal balance of outstanding MBS in the non-defaulted issuer portfolio. It is Ginnie Mae’s
compensation for taking on the risk of providing the guaranty to MBS investors for the timely
payment of principal and interest in the event of issuer default.

Ginnie Mae recognizes a guaranty asset upon issuance of a guaranty for the expected present
value of these guaranty fees. The guaranty liability is a non-contingent guaranty liability for
Ginnie Mae’s obligation to stand ready to perform on the guaranty. The guaranty liability
recognized on the Balance Sheets is $7,012.9 million and $6,633.9 million as of September 30,
2013 and 2012, respectively. In addition to the guaranty liability, Ginnie Mae recognizes a MBS
loss liability, which is contingent liability for estimable and probable losses in relation to these
guarantees (i.e., MBS Loss Liability).

For the guarantee asset and liability recognized on the Balance Sheets, Ginnie Mae’s maximum
potential exposure under these guarantees is primarily comprised of the amount of MBS
securities outstanding. On September 30, 2013, the amount of securities outstanding, which is
guaranteed by Ginnie Mae, was $1.5 trillion, including $1.6 million of Ginnie Mae-guaranteed
bonds. However, Ginnie Mae’s potential loss is considerably less because of the financial
strength of its issuers. Additionally, in the event of default, the underlying mortgages serve as
primary collateral, and FHA, USDA, VA, and PIH insurance or guaranty indemnifies Ginnie
Mae for most losses. The Ginnie Mae guaranteed security is a pass-through security whereby
mortgage principal and interest payments, except for servicing and guaranty fees, are passed
through to the security holders monthly. Mortgage prepayments are also passed through to
security holders. As a result of the security’s structure, Ginnie Mae bears no interest rate or
liquidity risk. Ginnie Mae’s exposure to credit loss is contingent on the nonperformance of
Ginnie Mae issuers. Other than those issuers considered in the MBS loss liability, Ginnie Mae
does not anticipate nonperformance by its other counterparties. The approximate term of the
guarantee is 15-30 years. The maximum term is capped at 40 years.

Ginnie Mae is also subject to credit risk for its outstanding commitments to guarantee MBS
which are not reflected in its Balance Sheets in the normal course of operations. The fair values
of these commitments are an unrecognized MBS commitment for financial statement purposes.
During the mortgage closing period and prior to granting its guaranty, Ginnie Mae enters into
commitments to guaranty MBS. The commitment ends when the securities are issued or the
commitment period expires. Ginnie Mae’s risk related to outstanding commitments is much less
than for the outstanding balance of MBS commitments due in part to Ginnie Mae’s ability to
limit commitment authority granted to individual MBS issuers. Outstanding MBS and
commitments were as follows:

                                                              September 30
               (Dollars in billions)                   2013                  2012
               Outstanding MBS                $           1,457.0      $        1,341.4
               Outstanding MBS Commitments    $               118.1    $            115.7


                                                  30
If the outstanding MBS commitments were utilized in FY 2013, Ginnie Mae’s corresponding
guaranty liability, its obligation to stand ready to perform on these securities, would be
approximately $602.4 million as of September 30, 2013 and $601.7 million as of September 30,
2012.

The Ginnie Mae MBS serves as the underlying collateral for multiclass products, such as Real
Estate Mortgage Investment Conduits (REMIC), Callable Trusts, Platinums, and Stripped
Mortgage-Backed Securities (SMBS), for which Ginnie Mae also guarantees the timely payment
of principal and interest. These structured transactions allow the private sector to combine and
restructure cash flows from Ginnie Mae MBS into securities that meet unique investor
requirements for yield, maturity, and call-option features.

In FY 2013, Ginnie Mae issued a total of $99.1 billion in its multiclass securities program. The
estimated outstanding balance of multiclass securities included in the outstanding MBS balance
as of September 30, 2013, was $468.5 billion. These guaranteed securities do not subject Ginnie
Mae to additional credit risk beyond that assumed under the MBS program.



Note 4: Mortgage Servicing Rights

The following table presents activity for residential first mortgage MSRs:

                                                                       September 30
                (Dollars in thousands)                                     2013
                Balance, October 1, 2012                           $          60,700
                Additions                                                             -
                Changes in Fair Value                                             4,400
                Balance, September 30, 2013                        $          65,100



                                                                       September 30
                (Dollars in thousands)                                     2012
                Balance, October 1, 2011                           $         110,900
                Additions                                                             -
                Changes in Fair Value                                         (50,200)
                Balance, September 30, 2012                        $          60,700


The Unpaid Principal Balance (UPB) of the MSRs for the total portfolio was $7.8 billion and
11.5 billion in FY 2013 and 2012, respectively.

The variables in the table above can, and generally do, change from period to period as market
conditions and projected interest rates change, and could have an adverse impact on the value of
the MSRs and could result in a corresponding reduction in servicing income. The decrease in
MSR value is attributable to increase in prepayments, higher cost of servicing, and higher
delinquency and foreclosure rates, amongst other fair value drivers.


                                               31
Impact of key economic assumptions used in determining the fair value of the Ginnie Mae’s
MSR are as follows:

                                                                       September 30
     (Dollars in thousands)                                         2013                 2012

     Valuation at period end:
                 Fair value (thousands)                         $      65,100        $      60,700
                 Weighted- average life (years)                          5.38                 2.43
     Prepayment rates assumptions:
                 Rate assumption                                       17.69%               32.89%
                 Impact on fair value of a 10% adverse change              (4,000)          (4,420)
                 Impact on fair value of a 20% adverse change              (7,700)          (8,339)
     Discount rate assumptions:
                 Rate assumption                                       12.57%               12.52%
                 Impact on fair value of a 10% adverse change              (2,700)          (1,398)
                 Impact on fair value of a 20% adverse change              (5,200)          (2,735)


These sensitivities are hypothetical and should be considered with caution. Changes in fair value
based on a 10% or 20% variation in assumptions generally cannot be extrapolated because the
relationship of the change in assumptions to the change in fair value may not be linear. Also, the
effect of a variation in a particular assumption on the fair value is calculated without changing
any other assumption. In reality, changes in one factor may result in changes in another (e.g.,
increased market interest rates may result in lower prepayments and increased credit losses) that
could magnify or counteract the sensitivities. The discount rate assumptions are derived from a
range of observed discount rate assumptions in the industry to which a premium was added in
order to account for current credit conditions.

One of the primary risks associated with Ginnie Mae’s MSRs is interest rate risk and the
resulting impact on prepayments. A significant decline in interest rates could lead to
higher−than−expected prepayments that could reduce the value of the MSRs.

Ginnie Mae collected $41.1 million and $57.0 million in mortgage servicing fees for the years
ended September 30, 2013 and 2012, respectively. This amount is recorded as a recovery in the
MBS loss liability.



Note 5: Advances Against Defaulted MBS Pools

The advances against defaulted MBS pools balance is $99.1 million in FY 2013 and $59.7
million in FY 2012. The table below shows the account activity.




                                                     32
                                                                                                         September 30
                    (Dollars in thousands)                                                        2013                      2012
                    Advances against defaulted MBS pools                                  $            261,600     $             156,900
                    Allowance for Uncollectible Advances                                               (162,500)                 (97,200)
                    Advances against defaulted MBS pools, net                             $             99,100     $              59,700




Note 6: Ginnie Mae Defaulted Issuer Loan Portfolio Profile

Ginnie Mae’s defaulted issuer loan portfolio profile consists of primarily single family loans. As
of September 30, 2013, there are no multifamily mortgage loans within the Ginnie Mae defaulted
issuer portfolio. Defaulted loans related to manufactured housing have a UPB of $1.0 million
and have been written down to $0 since these are delinquent past 90 days and considered credit
impaired. All manufactured housing loans have been placed on a nonaccrual status. The table
below describes the aging of the single family defaulted issuer loan profile (i.e., mortgage loans
HFI, foreclosed property, properties held for sale, short sale claims receivable, etc.) and UPB in
millions:

                                                                       As of September 30, 2013
     30 - 59         60 - 89                           120+                                                            Loans Over 120 Days
                                     90-119                             Total                                                              Recorded Investment
      Days            Days                             Days                             Current          Total            Delinquent and
                                 Days Delinquent                      Delinquent                                                           in Nonaccrual Loans
    Delinquent      Delinquent                       Delinquent                                                          Accruing Interest
$        63,900 $        340,800 $       126,700 $      3,907,300 $      4,438,700 $ 2,320,700 $           6,759,500 $            1,739,300 $         2,572,800
                                                                       As of September 30, 2012
     30 - 59         60 - 89                           120+                                                            Loans Over 120 Days
                                     90-119                             Total                                                              Recorded Investment
      Days            Days                             Days                             Current          Total            Delinquent and
                                 Days Delinquent                      Delinquent                                                           in Nonaccrual Loans
    Delinquent      Delinquent                       Delinquent                                                          Accruing Interest
$        16,500 $      1,458,900 $       145,800 $      6,343,200 $      7,964,400 $       179,800 $       8,144,200 $            2,858,800 $         3,865,000


Ginnie Mae analyzes its risk structure based on a loan’s insurance coverage. Loans, which are
insured by the FHA, have the least credit risk and are classified as Credit Risk Level 1 because
Ginnie Mae expects to receive full recovery of principal in the event of a loan default. Loans,
which are classified as a Credit Risk Level 2, are insured by other agencies (i.e., VA, USDA,
etc.). These loans are more risky than Credit Level 1 loans because Ginnie Mae expects to
receive partial recovery of principal. All loans without insurance coverage are classified as a
Credit Risk Level 3. These loans are high risk because they have a lower probability for
recovery than insured loans. The breakdown of loans by credit risk level and UPB in millions is
below:




                                                                                   33
                                                                         September 30
                                                                  2013                    2012
                 Credit Risk Level 1 - FHA Loans         $         5,836,700      $        7,131,000
                 Credit Risk Level 2 - Non-FHA Loans                 396,700                  664,700
                 Credit Risk Level 3 - Uninsured Loans               526,100                  348,400
                 Total                                   $         6,759,500      $        8,144,100




Note 7: Mortgage Loans Held for Investment, Net

Mortgage loans HFI, net as of September 30, 2013 and 2012 were as follows:

                                                                                          September 30
(Dollars in thousands)                                                             2013                      2012
Total Mortgage Loans HFI                                                   $          6,169,600      $        6,866,500
Total Mortgage Loans HFI Allowance for Loss                                           (502,200)                (177,400)
Total Mortgage Loans HFI, net                                              $          5,667,400      $        6,689,100


Ginnie Mae purchased $1.1 billion and $705.0 million loans from defaulted issuer pools as of
September 30, 2013 and 2012, respectively. As of September 30, 2013, there are no multifamily
mortgage loans within the Ginnie Mae defaulted issuer portfolio. Defaulted loans related to
manufactured housing have a UPB of $1.0 million and have been written down to $0 since these
are delinquent past 90 days and considered credit impaired. All manufactured housing loans
have been placed on a nonaccrual status.

In FY 2013 and 2012, Ginnie Mae recorded $116.4 and $279.8 million, respectively, in interest
income on mortgage loans HFI.



Note 8: Foreclosed Property, Net

The Foreclosed property balance is $481.1 million in FY 2013 and $852.6 million in FY 2012,
net of the allowance for foreclosed property. The table below shows account activity:

                                                                               September 30
              (Dollars in thousands)                                 2013                     2012
              Foreclosed property                             $           494,600     $          929,400
              Allowance for foreclosed property                            (13,500)               (76,800)
              Foreclosed property, net                        $           481,100     $          852,600


Ginnie Mae utilizes the non-pooled valuation and allowance methodology to evaluate Foreclosed
Property on an individual basis. Items are evaluated to determine impairment include insurance


                                                         34
status and probable recovery amount based on experience and industry studies. As of September
30, 2013, there are no multifamily and manufactured housing foreclosed property.



Note 9: Short Sale Claims Receivable, Net

The Short Sale Claims Receivable balance is $61.7 million in FY 2013 and $21.1 million in FY
2012. The table below shows account activity:

                                                                        September 30
            (Dollars in thousands)                               2013                     2012
            Short Sale Claims Receivable                     $      81,600        $          36,800
            Allowance for Short Sale Claims Receivable              (19,900)                 (15,700)
            Short Sale Claims Receivable, net                $      61,700        $          21,100


Ginnie Mae utilizes the non-pooled valuation and allowance methodology to evaluate Short Sale
Claims Receivable on an individual basis. Items are evaluated to determine impairment include
insurance status and probable recovery amount based on experience and industry studies. As of
September 30, 2013, there are no multifamily mortgage loans within the Ginnie Mae defaulted
issuer portfolio.



Note 10: Insurance Claims Receivable

The Claims Receivable balance is $8.4 million in FY 2013 and $6.5 million in FY 2012. There
is no allowance on Insurance Claims Receivable because it is a Federal receivable.



Note 11: Properties Held for Sale, Net

Balances and activity for these acquired properties were as follows:

                                                                         September 30
      (Dollars in thousands)                                     2013                        2012
      Balance of properties, beginning of year           $               15,500       $              7,400
         Additions                                                       42,600                     25,500
         Dispositions and Losses                                        (28,500)                    (17,400)
      Balance of properties, end of year                 $               29,600       $             15,500
      Valuation Allowance                                                (6,200)                     (3,900)
      Properties held for sale, net                      $               23,400       $             11,600




                                                    35
During FY 2013, $42.6 million of loans were repurchased out of pools and categorized as
properties held for sale. The properties held for sale balance is composed primarily of single
family collateral.



Note 12: Fair Value Measurements

This note discusses the recurring and non-recurring changes in fair value measurement as well as
the fair value of financial instruments. The following sections provide detailed information.

Recurring Changes in Fair Value

The following table presents the fair value measurement hierarchy level for Ginnie Mae’s assets
that are measured at fair value on a recurring basis subsequent to initial recognition, including
financial instruments for which Ginnie Mae has elected the fair value option. Mortgage
Servicing Rights is the only Ginnie Mae asset which is measured on a recurring basis subsequent
to initial recognition. The fair value of the Mortgage Servicing Rights and its measurement basis
is shown below.

                                                                   September 30, 2013

      (Dollars in thousands)                Level 1               Level 2         Level 3         Total
      Mortgage Servicing Rights         $                 -   $             - $      65,100   $      65,100


      Total Assets at Fair Value        $                 -   $             - $      65,100   $     65,100




                                                                   September 30, 2012

      (Dollars in thousands)                Level 1            Level 2            Level 3         Total
      Mortgage Servicing Rights         $             -       $       -       $      60,700   $      60,700

      Total Assets at Fair Value        $             -       $         -     $      60,700   $     60,700



Ginnie Mae measures the fair value of MSRs based on the present value of expected cash flows
of the underlying mortgage assets using management’s best estimates of certain key
assumptions, which include prepayment speeds, forward yield curves, adequate compensation,
and discount rates commensurate with the risks involved. Changes in anticipated prepayment
speeds, in particular, result in fluctuations in the estimated fair values of the servicing rights. If
actual prepayment experience differs from the anticipated rates used in the model, this may result
in a material change in the fair value. Note 4 contains additional detail in regards to specific fair
value assumptions.

The following table presents a reconciliation for the MSRs measured at fair value on a recurring
basis using significant unobservable inputs for the years ended September 30, 2013 and 2012:

                                                 36
                                                                                           Mortgage
                                                                                        Servicing Rights
             (Dollars in thousands)
                                                                                        $           60,700
             October 1, 2012

             Net realized/unrealized gains (losses) included in Excess of Revenue                    4,400
             over Expenses

             September 30, 2013                                                         $           65,100




             Assets:
                                                                                        $          110,900
             October 1, 2011


             Net realized/unrealized gains (losses) included in Excess of Revenue                  (50,200)
             over Expenses

             September 30, 2012                                                         $           60,700


The table below summarizes gains and losses due to changes in fair value, including both
realized and unrealized gains and losses, recorded in excess of revenue over expenses for the
fiscal year ended 2013 and 2012 for the MSRs:

                                                                                    Total Gains and Losses on
                                                                                     Mortgage Service Rights

  (Dollars in thousands)                                                                    2013              2012
  Classification of gains and losses
  (realized/unrealized) included in Excess of
  Revenue over Expenses for the period:

                                                Gain (Loss) on MSR                             4,400          (50,200)
  Total                                                                             $          4,400    $     (50,200)


Nonrecurring Changes in Fair Value

The following table displays the asset measured on the Balance Sheets at fair value on a
nonrecurring basis; that is, the instruments are not measured at fair value on an ongoing basis but
are subject to fair value adjustments in certain circumstances (e.g., when Ginnie Mae evaluates
for impairment), and the gains or losses recognized for these assets and liabilities for the years
ended September 30, 2013 and 2012, as a result of fair value measurements:




                                                       37
                                                                 September 30, 2013
(Dollars in thousands)                                                                  Level 1          Level 2             Level 3        Total Losses
Properties held for sale, net                                                                                        $           23,400                      -


                                                                 September 30, 2012
(Dollars in thousands)                                                                  Level 1          Level 2             Level 3        Total Losses
Properties held for sale, net                                                                                        $           11,600                      -




Properties held for sale, net represents foreclosed property received in full satisfaction of a loan,
which Ginnie Mae intends to sell, net of a valuation allowance. Properties held for sale is
initially recorded on the Balance Sheets at its fair value less its estimated cost to sell.
Subsequent to initial measurement, the properties held for sale are reported at the lower of the
carrying amount or fair value less estimated cost to sell. The fair value estimate is based on
relevant current and historical factors available at the time of valuation. The properties are
appraised by independent entities on a regular basis throughout the year. The appraisals include
viewing the condition of properties and analyzing market conditions (i.e., comparing similar
properties, recent sales, etc.). Acquired property is classified within Level 3 of the valuation
hierarchy because significant inputs are unobservable.

Fair Value of Financial Instruments

The following table displays the carrying value and estimated fair value of Ginnie Mae’s
financial instruments as of September 30, 2013 and 2012.

                                                                    September 30, 2013                                          September 30, 2012

(Dollars in thousands)                      Carrying Value        Level 1            Level 2           Level 3           Carrying Value         Fair Value

Financial Assets:
Funds with U.S. Treasury                    $   9,622,400    $     9,622,400     $             -   $             -       $      7,075,500   $     7,075,500
U.S. Government securities                  $   1,810,200    $     1,868,500     $             -   $             -       $      2,113,600   $     2,183,800
Mortgages held for investment, net          $   5,667,400    $              -    $             -   $    5,667,400        $      6,689,100   $     6,689,100
Foreclosed property, net                    $     481,100    $              -    $             -   $      481,100        $       852,600    $       852,600
Advances against defaulted MBS Pools, net   $      99,100    $              -    $             -   $       99,100        $        59,700    $        59,700
Short sale claims receivable, net           $      61,700    $              -    $             -   $       61,700        $        21,100    $        21,100
Mortgage servicing rights                   $      65,100    $              -    $             -   $       65,100        $        60,700    $        60,700
Guaranty asset                              $   7,012,900    $              -    $             -   $             -       $      6,633,900   $            -

Financial Liabilities:
Guaranty liability                          $   7,012,900    $              -    $             -   $             -       $      6,633,900   $            -



Ginnie Mae’s standing as a federal government corporation whose guaranty carries the full faith
and credit of the U.S. Government makes it difficult to determine what the fair value of its
financial instruments would be in the private market. Therefore, the fair values presented in the
table above do not purport to present the net realizable, liquidation, or market value as a whole.
Furthermore, amounts which Ginnie Mae ultimately realizes from the disposition of assets or
settlement of liabilities may vary significantly from the fair values presented.




                                                                            38
The valuation techniques for the line items disclosed in the above table, including funds with
U.S. Treasury, foreclosed property, advances against defaulted MBS pools, and short sale claims
receivable have a carrying amount which approximates fair value due to the short-term nature
inherent in them. Mortgage held for investment, net is impaired when purchased from the pool
and held net of an allowance.

U.S. Government Securities – Ginnie Mae records the fair value of this asset based on quoted
data from the U.S. Bureau of Public Debt.

Mortgage loans held for investment, net – Mortgage loans held for investment, net is measured
as the unpaid principal balance which Ginnie Mae pays to purchase the loans from a defaulted
issuer pool. These loans are reported net of an allowance for loan losses. Ginnie Mae does not
account for loans at fair value because the agency receives the entire principal and interest
balances through the insurers or borrowers in most instances, except for VA-insured loans.

Guaranty Asset and Liability – Ginnie Mae uses the practical expedient to determine the
guaranty asset and liability based on the present value of the expected future cash flows from the
guaranty fees based on the unpaid principal balance of the outstanding MBSs in the non-
defaulted issuer portfolio which results from new issuances of MBSs, scheduled run-offs of
MBSs, prepayments and defaults. Subsequently, the guaranty asset and liability is measured by
a systematic and rational amortization method. It is not practicable to calculate a fair value on
the guaranty asset and liability because there is no market to compare the estimates. Note 3
provides additional information in regards to the guaranty asset and liability.



Note 13: MBS Loss Liability

Ginnie Mae establishes a MBS loss liability on an annual basis. The changes in the MBS loss
liability for the years ended September 30, 2013, and 2012 were as follows:

                                                                               Manufactured
                                  Single Family              Multifamily                           Total
    (Dollars in thousands)                                                       Housing
    MBS Loss Liability
    September 30, 2011        $              394,200     $                 -   $      1,600    $    395,800
       Provision for losses                  266,500                 300             (2,300)        264,500
       Charge-offs                           (446,200)              (200)            (1,000)       (447,400)
      Recoveries                             142,000                       -          2,500         144,500
    MBS Loss Liability
    September 30, 2012        $              356,500     $           100       $        800    $    357,400
       Provision for losses                  403,300                (100)            (1,100)        402,100
       Charge-offs                           (203,200)                     -           (800)       (204,000)
      Recoveries                             143,100                       -          1,700         144,800
    MBS Loss Liability
    September 30, 2013        $              699,700     $                 -   $        600    $    700,300


Management believes that its MBS loss liability is adequate to cover probable and estimable
losses on the MBS program guaranty. Ginnie Mae incurs losses when FHA, USDA, VA, and

                                                  39
PIH insurance and guaranty proceeds do not cover losses that result from issuer defaults or in the
event loans are uninsured and proceeds do not cover losses from default. During FY 2013,
Ginnie Mae defaulted one single family issuer with extinguishment with a portfolio of $19.7
million and another single family issuer without extinguishment. Ginnie Mae accounted for and
included the default in the MBS Loss Liability. As of September 30, 2013, Ginnie Mae’s single
family and manufactured housing pooled defaulted portfolio had remaining principal balances of
$8.5 billion and $267 thousand, respectively.



Note 14: Concentrations of Credit Risk

Concentrations of credit risk exist when a significant number of counterparties (for example,
issuers and borrowers) engage in similar activities or are susceptible to similar changes in
economic conditions that could affect their ability to meet contractual obligations. Generally,
Ginnie Mae’s MBS pools are diversified among issuers and geographic areas. No significant
geographic concentrations of credit risk exist; however, to a limited extent, securities are
concentrated among issuers. Concentrations of credit risk are as noted below, as of September
30, 2013:

                                                                                                                        Home Equity
                                                                                               Manufactured
                                Single Family                   Multifamily                                              Conversion
                                                                                                 Housing
                                                                                                                       (HECM/HMBS)
                             Number     Remaining                          Remaining        Number Remaining Number Remaining
                                                          Number of
                                of       Principal                          Principal          of   Principal    of   Principal
(Dollars in billions)
                                                           Issuers
                             Issuers     Balance                            Balance         Issuers Balance   Issuers Balance

Largest performing issuers        25 $     1,169.6                    21   $         70.7         1   $         0.3     12   $   44.6
Other performing issuers         210 $        157.1                   36   $          9.2         2   $          -       0   $        -
Defaulted issuers                 23 $          7.8                    0   $           -          1   $          -       0   $        -


Concentrations of credit risk are as noted below, as of September 30, 2012:

                                                                                                                       Home Equity
                                                                                            Manufactured
                                   Single Family                Multifamily                                             Conversion
                                                                                              Housing
                                                                                                                      (HECM/HMBS)
                              Number      Remaining       Number      Remaining        Number Remaining Number Remaining
                                 of        Principal         of        Principal          of   Principal    of   Principal
(Dollars in billions)         Issuers      Balance        Issuers      Balance         Issuers Balance   Issuers Balance

Largest performing issuers             25 $     1,135.3        19     $        58.5           1   $        0.3         11    $   36.9
Other performing issuers           169 $          92.2         37     $         9.0           2   $         -           0    $        -
Defaulted issuers                      22 $       11.2          0     $          -            3   $         -           0    $        -


Issuers are permitted only to pool insured or guaranteed loans (from FHA, USDA, VA or PIH).
The insuring and guarantying entities have strict underwriting standards and criteria for quality
of collateral. In the event of issuer default, Ginnie Mae assumes the rights and obligations of the
issuer and becomes the owner of the MSR asset, which typically is a sale-able asset. In addition,
in the event of borrower delinquency in excess of 90 or 120 days for Single Family or

                                                                40
Manufactured Housing respectively, Ginnie Mae has the right to repurchase the loan out of the
pool and can obtain access to the underlying collateral or insurance claim by pursuing
foreclosure.



Note 15: Commitments and Contingencies

As of September 30, 2013, and as of this report, Ginnie Mae’s Office of General Counsel has
identified one pending or threatened action or unasserted claim or assessment in which Ginnie
Mae’s exposure is $3.0 million, individually, or in the aggregate for similar matters.
Additionally, Ginnie Mae’s Office of General Counsel has determined that there are no pending
or threatened actions or unasserted claims or assessments in which Ginnie Mae’s potential loss
exceeds $6.0 million in the aggregate for cases not listed individually or as part of similar cases
that could be material to the financial statements. In the opinion of Ginnie Mae’s management
and Office of General Counsel, the likelihood of an unfavorable outcome is remote in the case.
It is the opinion of Ginnie Mae that the disposition or ultimate resolution of the case will not
have a material adverse effect on the financial position of Ginnie Mae.

Ginnie Mae has commitments to guaranty MBS, which are off-balance sheet financial
instruments. Additional information is discussed in Note 3: Financial Guarantees and Financial
Instruments with Off-Balance Sheet Risk.

Ginnie Mae’s management recognizes the uncertainties that could occur in regard to potential
defaulted issuers and other indirect guarantees (i.e., large issuer portfolio default, lack of proper
insurance coverage of defaulted loans, etc.). Additional information is discussed in Note 13:
MBS Loss Liability.



Note 16: Related Parties

Ginnie Mae is subject to controls established by government corporation control laws (31 U.S.C.
Chapter 91) and management controls by the Secretary of HUD and the Director of the Office of
Management and Budget (OMB). These controls could affect Ginnie Mae’s financial position or
operating results in a manner that differs from those that might have been obtained if Ginnie Mae
were autonomous.

Ginnie Mae was authorized to use $22.5 million during FY 2013 for personnel (payroll) and non-
personnel (travel, training) costs only. During FY 2013, Ginnie Mae incurred $17.5 million, net,
for Salaries and Expenses. Ginnie Mae has no liability for future payments to employees under
the CSRS or FERS retirement systems. Ginnie Mae does not account for the assets of CSRS or
FERS nor does it have actuarial data with respect to accumulated plan benefits or the unfunded
pension liability relative to its employees. These amounts are reported by the Office of
Personnel Management (OPM) and are allocated to HUD. OPM also accounts for the health and


                                                 41
life insurance programs for federal employees and retirees and funds the non-employee portion
of these programs’ costs.

Cash receipts, disbursements, and investment activities are processed by the U.S. Treasury.
Funds with U.S. Treasury represent cash and are treated as such for the Statements of Cash Flow.
Ginnie Mae has authority to borrow from the U.S. Treasury to finance operations in lieu of
appropriations, if necessary.

Additionally, Ginnie Mae has an intra-entity relationship with the FHA, which is part of HUD.
Of the total mortgage loans HFI, net, approximately $5.3 billion and $6.2 billion loans were
insured by FHA as of September 30, 2013 and 2012, respectively. In addition, Ginnie Mae
submits and receives claim proceeds for FHA-insured loans that have been through the
foreclosure and short sale process. The breakdown of FHA claims pending payment or pre-
submission to FHA is below:

                                                                 September 30
           (Dollars in thousands)                         2013                  2012
           Foreclosed Property                       $       479,500     $        829,500
           Short Sales Claims Receivable                      44,100               14,900
           Insurance Claims Receivable                           8,400                 6,500
           Total FHA Claims, net                     $       532,000     $        850,900



Note 17: Credit Reform

The Federal Credit Reform Act of 1990, which became effective on October 1, 1991, was
enacted to more accurately measure the cost of federal credit programs and to place the cost of
these credit programs on a basis equivalent with other federal spending. Credit reform focuses
on credit programs that operate at a loss by providing for appropriated funding, within budgetary
limitations, to subsidize the loss element of the credit program. Negative subsidies, calculated
for credit programs operating at a profit, normally result in the return of funds to the U.S.
Treasury. OMB specifies the methodology an agency is to follow in accounting for the cash
flows of its credit programs.

Ginnie Mae’s credit activities have historically operated at a profit. Ginnie Mae has not incurred
borrowings or received appropriations to finance its credit operations. As of September 30,
2013, the U.S. Government has an investment of $17.0 billion in Ginnie Mae. Pursuant to the
statutory provisions under which Ginnie Mae operates, its net earnings are used to build sound
reserves. In the opinion of management and HUD’s general counsel, Ginnie Mae is not subject
to the Federal Credit Reform Act.




                                               42
Note 18: Subsequent Event

Ginnie Mae management has evaluated potential subsequent events through November 25, 2013,
the date through which the financial statements were made available to be issued. Based on the
evaluation, Ginnie Mae management identified no subsequent events.




                                             43
